No. __A-______

In the Supreme Court of the United States

NATIONAL FOOTBALL LEAGUE, INC. et al.,
Applicants,
v.
NINTH INNING, INC. et al.,
Respondents.

CERTIFICATE OF SERVICE
I, Gregg H. Levy, counsel for the NFL and member club Applicants and a
member of the Bar of this Court, certify that on November 27, 2019, I caused a copy
of the Application for an Extension of Time in Which to File a Petition for Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit in the abovecaptioned case to be tendered to FedEx for delivery on November 29, 2019, in
accordance with Rules 22.2 and 29.3 of this Court, to the following:
Marc M. Seltzer
SUSMAN GODFREY L.L.P.
1900 Avenue of the Stars, Suite 1400
Los Angeles, CA 90067-6029
Scott Martin
HAUSFELD LLP
33 Whitehall Street, 14th Floor
New York, NY 10004

Edward Diver

Danger Grogan & Diver, P.C.
1717 Arch Street, Suite 4020
Philadelphia, PA 19103

I further certify that, in accordance with Rule 29.3 of this Court, all parties
required to be served have been served.

Gregg
reesT H. Levy
CoviNGTON & Burling LLP

One CityCenter
850 Tenth Street, N.W.
Washington, D.C. 20001-4956
Email: glevy@cov.com
Tel:(202) 662-6000

'5C'

